   •   Noncompliance with Act requirements for open meetings, open financial records,
       maintaining an active Community Advisory Board (CAB), and establishing
       procedures for explaining the station’s compliance with the five Act requirements.

Overall, we found a lack of adequate oversight and controls at the station to ensure
compliance with CPB’s requirements for activities performed by third party providers
and station personnel. Specifically, we found that the Board of Directors (Board) and
station management did not maintain adequate control over its finances and other
compliance requirements to responsibly manage CPB grants during our audit period.
KABF officials annually certified its compliance with CPB requirements in applying for its
new CSG grant. Future entitlements may be jeopardized by continuing noncompliance
with these requirements.

In response to the draft report, KABF officials said that they only recently realized that
CPB requirements for financial recordkeeping and reporting were not being met. They
said that they had accepted the Annual Financial Report prepared by their accounting
service provider without revision because of assurances by previous KABF station
managers and consultants that everything was accurate and complete. They also said
from this point forward, compliance with the requirements of the Communications Act
will be verified by the Board and the CAB prior to making the required annual
certification to CPB. KABF’s complete response to the draft report is attached in
Exhibit F.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position
on these matters. Accordingly, this report contains recommendations the OIG believes
would be appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on KABF’s response to the
draft report, we consider recommendations 1 - 7 unresolved, pending a final
management decision by CPB on the findings and recommendations.


                                   BACKGROUND
KABF is a community radio station located in Little Rock, Arkansas. It is licensed
through the Arkansas Broadcasting Foundation, Inc. (ABF). KABF’s format is music
and talk, with diverse programming.

KABF’s independent public accountant identified nine related parties in its notes to the
financial statements. These included the Association of Community Organizations for
Reform Now (ACORN), Citizens Consulting, Inc. (CCI), and the Affiliated Media
Foundation Movement, Inc. (AM/FM). CCI was KABF’s accounting service provider and
AM/FM personnel served as our audit coordinator. KABF received a variety of other



                                             2
business services from other related organizations1 for internet, telephone, health
benefits, office space, etc. Currently, KABF is transitioning from CCI to another
accounting service in Little Rock.

A station’s CSG award amount is determined based on its reported NFFS. The CSG
calculation process starts with separate amounts appropriated for the television and
radio CSG pools adjusted by the base grant, as well as, the distance and local service
grant amounts. The funds that remain are called the Incentive Grant Pools, one is for
television and the other is for radio. The Incentive Rate of Return (IRR) for television
and radio are calculated by dividing the Incentive Grant Pools for television and radio by
the total amount of NFFS claimed by all television and all radio stations, respectively.
The appropriate IRR is then multiplied by the station’s reported NFFS to calculate the
incentive award amount of the station’s total CSG. There is a two year lag between the
reported NFFS and CPB’s calculation of the fiscal year’s CSG award amount. CPB
used the NFFS claimed on KABF’s 2007 AFR (1/1/07–12/31/07) to determine the
amount awarded to KABF for its FY 2009 CSG (10/1/08–9/30/09).

CPB’s FY 2007 CSG award to KABF was for $87,388. This award included $63,050 in
unrestricted CSG funds and $24,338 in restricted funds. Restricted funds were to be
spent on the production, acquisition, or distribution of national programming. All CSG
awards have a two year spending period, the FY 2007 CSG award could be spent from
October 1, 2006 to September 30, 2008. Because annual CSG awards have a two year
spending period, the FY 2007 grant was overlapped by the second year of the FY 2006
CSG grant and the first year of the FY 2008 CSG grant.

In 2005 CPB awarded KABF an ISA Grant for $15,000. The purpose of the ISA Grant
was to help rural and minority stations use state-of-the-art web technology to increase
service to their listeners. CPB’s vision was to improve the stations’ web presence to
enhance station outreach, deepen community relationships, improve public
transparency and accountability, and offer listeners an easy and secure way to support
stations financially. The ISA Grant was amended in 2006, modifying the grant period to
October 1, 2004 to December 31, 2007. The grant was to be paid out in two
installments; the first $10,000 payment was made in March 2005 to cover expenses for
the period October 1, 2004 - December 31, 2006. The second payment of $5,000 was
to cover calendar year 2007 expenses. However, CPB did not make a second payment
to KABF, because this audit was planned.

CPB’s cash payments for the ISA Grant and the FY 2007 CSG are identified on Exhibit
A. KABF reported total revenues of $237,918 on its 2007 AFR, Exhibit B, and $134,724
as NFFS, Exhibit C. KABF’s 2007 AFR covered the period January 1, 2007 - December
31, 2007.


1
  In addition to the three organizations identified above, the notes to the financial statements identified
these other related parties: COUNCIL Health Plan (CHP), COUNCIL Beneficial Association (CBA),
Peoples Equipment Resource Corporation (PERC), Fifteenth Street Corporation (FSC), AGAPE
Broadcasting Foundation (AGAPE), and the American Institute for Social Justice (AISJ).


                                                       3
                               RESULTS OF REVIEW
We examined management’s assertions of compliance with CPB’s CSG agreement
terms, Financial Reporting Guidelines, Certification of Eligibility requirements, and Act
requirements for FY 2007. We also examined KABF’s CSG and ISA expenses.
Management is responsible for KABF’s compliance with CPB’s requirements. Our
responsibility is to express an opinion on management’s assertions about its
compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards, for Attestation engagements, and accordingly, included examining, on a test
basis, evidence of KABF’s compliance with those requirements and performing such
other procedures as we considered necessary. We believe that our examination
provides a reasonable basis for our opinion. Our examination does not provide a legal
determination of KABF’s compliance with specified requirements.

Our examination disclosed the following issues of material noncompliance with CPB’s
CSG and ISA grant agreement terms, NFFS financial reporting requirements,
Certification of Eligibility requirements, and Act requirements, applicable to the FY
ending September 30, 2007.

   •   Questioned $49,957 in CPB grant expenditures, including $9,631 in unallowable
       or undocumented ISA expenses, $23,298 in restricted FY 2007 CSG funds not
       spent on national programming, $11,664 in restricted FY 2006 funds spent for
       programming that was available to public broadcasting stations for free, and
       $5,364 spent in FY 2007 on related parties for administrative support without
       adequate documentation. The $28,662 in FY 2007 CSG questioned costs
       ($23,298 plus $5,364) represents 33 percent of the CSG awarded to KABF.
   •   Underwriting contributions of $48,097 were claimed as NFFS without adequate
       supporting documentation to verify its allowability. As a result, CPB overpaid
       KABF $2,997 in its FY 2009 CSG award. For reporting purposes we have
       classified this finding as funds put to better use. The $48,097 in over-reported
       NFFS represents 36 percent of the $134,724 NFFS reported for FY 2007.
   •   CCI’s accounting system (KABF’s accounting service provider) did not discretely
       account for the receipt and expenditure of CSG grant funds in accordance with
       CPB grant recordkeeping requirements to facilitate our audit. The lack of
       discrete accounting represents a scope limitation, which prevented us from
       verifying that CPB’s CSG grant funds were expended within the two year grant
       spending period.
   •   KABF was not in compliance with the statutory provisions of the Act and the CPB
       requirements for conducting open meetings of its Board and CAB, maintaining an
       active CAB, making financial records available to the public, and establishing
       operating procedures explaining how it complied with the five requirements of the
       Act.


                                             4
In our opinion, because of the effect of the material noncompliance issues described
above, KABF has not complied with the aforementioned requirements for the period
ending September 30, 2007.


                     FINDINGS AND RECOMMENDATIONS

Need for Governance Improvements

Our review identified that station officials had limited knowledge of its accounting
practices and did not prepare the financial reports submitted to CPB. Additionally,
KABF officials were unaware of their certification and eligibility requirements and the
statutory provisions of the Act. Finally, KABF officials were not aware of the grant
requirements for the ISA grant. We attribute these conditions to a lack of adequate
oversight and controls at the station to ensure compliance with CPB’s requirements for
activities performed by either third party contractors or station personnel.

Review of Board meeting minutes during calendar years 2006 and 2007 identified
concerns about the station’s finances. These concerns included staff members paying
for internet streaming from their own funds and finding monies to pay the station’s utility
bills before the services were turned off.

We found that the Board had developed financial guidance contained in its “Policies
Governing Financial Activity.” However, these policies had not been effectively
implemented at an operating level during our audit period. As a result, funds received
for station activities and expenses incurred were not being approved by KABF officials
as intended by its policy. The policy required station management to prepare monthly
budgets and financial reports and weekly “allocations” for the Board. These reports
would serve as the “authority” for execution of specific financial transactions.

At the time of our fieldwork, in June 2009, the station manager had earlier in the year
begun to prepare the weekly “allocations” and to document revenues and invoices
received at the station. These revenues and invoices were transmitted to CCI in New
Orleans for processing. We were not provided with any documentation that this
information was provided to the Board for its approval during our audit period.

As described later in this report, CCI did not spend restricted funds on national
programming, use ISA grant funds on allowable activities, maintain documentation
supporting the rates charged KABF for related party administrative support, or obtain an
executed production agreement between KABF and AGAPE for purchasing the
Empowerment Radio program. As a result, we have no assurance that KABF officials
were aware of how its funds were being expended. Many of KABF’s financial
transactions were only handled by CCI officials, who directly received and processed
grant revenues and vendor invoices in its New Orleans office.




                                             5
The Board was ultimately responsible for ensuring that its policies were implemented by
its staff members. However, our review of Board minutes for the period 2006 through
mid 2009 identified that weekly financial reporting allocations were not prepared in
accordance with the station’s budgets and transmitted to the Board, or a committee of
the Board, as required in its financial policy. The Board minutes only indicated that CCI
made periodic budget and financial information presentations to the Board. However,
the minutes did not provide the detail required for us to determine if this financial
information met the intent of the Board’s financial policies and constituted KABF
approval of all station expenditures.

We observed that the station relied heavily on CCI and its independent public
accountant (IPA) to answer our accounting and compliance questions in conducting our
audit. We found that the IPA prepared the AFR submitted to CPB. While this
information was shared with CCI, it was solely prepared by the IPA and both CCI and
KABF officials accepted the report without revision. Continued reliance on its IPA to
prepare its AFR does not provide the independence required by professional standards
for the IPA to opine on future attestations of the AFRs submitted to CPB. Additionally,
the IPA informed us that he had performed the KABF audit for a number of years, but
he had never visited the radio station or briefed its Board on his audits. In this case, the
Board did not take advantage of the independent public accountant’s work to gain a
better understanding of its financial conditions.

In addition to its financial responsibilities, the Board is also responsible for overseeing
compliance with CPB grant requirements under the Act. As discussed later in our
findings, KABF had not established operating policies for ensuring compliance with the
open meeting, open financial records, CAB, Equal Employment Opportunity (EEO), and
donor lists requirements under the Act. While the Board had no mechanism to oversee
how the station complied with these requirements, it annually certified to CPB that it had
complied with all of these requirements.

In response to this finding, KABF officials said that after many attempts to obtain
financial and other information from its consultant/manager, it became clear that it was
not receiving the financial information needed to oversee KABF’s affairs. The Board
then proceeded to replace its consultant/manager by increasing attempts to hire an on-
site person to manage and oversee the daily operations of KABF. Finally, they said the
station was no longer using the services of CCI.

   Recommendations

1) We recommend that CPB determine whether the current governance mechanisms
   are adequate and the licensee has instituted sufficient corrective actions to continue
   as a CPB grant recipient.

2) We recommend that CPB require KABF to:




                                             6
   a) Ensure the new bookkeeping service receives the necessary training in non-profit
      accounting and CPB requirements to accurately record and report on the
      financial activities of KABF.

   b) Ensure the new bookkeeping service provides KABF management and its Board
      with the necessary financial reports to manage its resources against budgets and
      obtains KABF’s approval of all financial transactions.
   c) Establish payment authorization controls to ensure CPB funds are only expended
      on allowable activities.

   d) Establish internal controls over the AFR preparation to ensure only allowable
      contributions are reported as NFFS, ensuring that exchange transactions are
      identified and evaluated to claim only the value received that exceeded the value
      given as NFFS.

   e) Discontinue the practice of having its IPA prepare its AFR. Station officials are
      responsible for preparing the AFR and the station’s IPA is responsible for
      independently attesting to its accuracy.

   f) Explain how the Board will assure that the station is in full compliance with the
      Communications Act requirements for open meetings, open financial records,
      CAB, EEO and donor list requirements before the licensee makes its annual
      certification to CPB.

   Management Response

In response to this finding, KABF officials said that the Board was not privileged to know
the full extent of CCI and AM/FM activities during the 2006-2008 time period. Without
an on-site station manager at KABF, they relied on CCI to perform the accounting in
compliance with CPB requirements. When KABF officials asked questions about
compliance, they were told that everything was in proper order and in compliance. They
said that financial decisions and distribution of funds were made from CCI’s offices in
New Orleans. Most bills and other documents were mailed directly to New Orleans, so
KABF staff and the Board were kept in the dark concerning financial operations. KABF
officials were not fully aware of how station funds were being expended. CCI officials
directly received and processed grant revenues and vendor invoices, and regularly sent
incomplete financial information to the KABF Board. The Board’s questions about
reported financial information were never fully answered by CCI and decisions made by
the KABF Board were routinely disregarded or over-ridden by CCI officials. Only
recently did KABF officials begin to realize that CPB requirements for financial
recordkeeping and reporting were not being met.

KABF officials did not respond to recommendations 1 and 2a. Recommendation 1 was
directed towards CPB management and not KABF. In response to recommendations
2b – 2f, KABF officials said its accounting service provider will provide the Board with
the financial reports needed to manage station resources against budgets, all


                                            7
expenditures will be reviewed and authorized by the Board, internal policies and
controls will be put in place to ensure that only allowable contributions are reported as
NFFS, station management will now prepare the AFR instead of relying on its IPA, and
the Board will establish a Compliance Committee to oversee compliance with all rules,
regulations, and laws prior to making the required annual certification of compliance to
CPB.

      OIG Review and Comment

Based on KABF’s response, we consider recommendations 1 and 2 unresolved.
Recommendation 1 was directed towards CPB management and remains unresolved
until CPB makes a management decision. While KABF agreed to take corrective
actions on recommendations 2b – 2f, their response did not include any examples of the
financial reports to be provided the Board or written policies and procedures
implementing controls over CPB expenditure authorizations for us to evaluate. These
recommendations can be resolved and closed when KABF provides CPB officials with
documentation of its planned actions and evidence that all actions have been fully
implemented.

Questioned CPB Expenses

Based on our examination of KABF expenses, we questioned $49,957 in CPB
expenditures as summarized in Exhibit D. This total included $9,631 in ISA costs that
were unallowable or not documented; $23,298 in restricted FY 2007 CSG funds that
were not spent on national programming; $11,664 in restricted FY 2006 funds spent for
programming that was available to public broadcasting stations for free; $5,364 spent in
FY 2007 on related parties for administrative services without adequate supporting
documentation. Our audit of CPB expenditures was complicated by the lack of discrete
accounting of CPB revenues and expenditures, as discussed further in our finding on
discrete accounting. Further, the $28,662 in FY 2007 CSG questioned costs represents
33 percent2 of CPB’s CSG awarded to KABF. This level of questioned costs is
materially noncompliant with CPB use of grant funds requirements.

          Questioned Internet Service Acquisition Expenses

Our review found that KABF over-reported ISA grant expenditures to CPB by
approximately $4,570. KABF reported to CPB over $15,000 in ISA expenses, but could
only identify $10,431 in ISA costs. Our audit of these costs questioned $9,631. CCI’s
accounting system did not separately account for the ISA grant funds and we had no
audit trail to trace the reported expenses into the accounting system. We had to rely on
CCI to identify expenses charged to this grant.

This audit was initiated after we had received multiple complaints alleging that the ISA
funds were not used to enhance KABF’s official website. Local KABF officials were not
involved in administering the grant funds. The grant funds were controlled by CCI.
2
    $28,662 in questioned costs/$87,388 CSG award amount = 32.8 percent.


                                                   8
KABF Board meeting minutes reflected the Board’s frustrations over its website not
being updated and employees paying for internet streaming from their own funds. This
was a year after CPB had already paid KABF $10,000 under this grant.

As background, the complainants alleged that KABF’s official website had not been
updated for twenty years. The station’s official website (kabf.org) was maintained by
one of KABF’s related party contractors in New Orleans. When local officials were
denied access to update this site by CCI, the station took the initiative to establish an
alternative website (kabf883.com). The complainants said they were not reimbursed
from ISA funds to pay for the alternative website. They said they used their own funds
to get the kabf833.com website operational and made additional payments related to
this website from a local bank account controlled by the station. The complainants
further alleged that the grant administrator reported some of these same costs to CPB
as ISA expenditures, even though these disbursements were not made with ISA funds.

We found that some of the expenses presented to us by CCI officials were identified as
being paid out of a local KABF bank account. However, we were not provided with any
documentation (vendor invoices or bank records) to support these disbursements. As a
result, we could not verify the validity of any of the expenses paid out of the local bank
account, as we discuss later in this finding.

In October 2007, KABF’s grant administrator reported that the station had incurred costs
in excess of $10,000 under the ISA Grant for the period October 2004 – December
2006 and incurred an additional $3,500 in 2007. Their report anticipated spending
another $1,565 before the end of 2007, for total grant expenditures of over $15,000.
CPB had only made one payment of $10,000 to KABF and the remaining $5,000
payment was pending the results of this audit.

CCI presented us with a spreadsheet of expenditures totaling $10,431 representing the
costs charged to the ISA grant. We identified that only $4,531 was incurred through the
period ending December 31, 2006, while they had reported expending over $10,000 for
this time period. The remaining expenses of $5,900 were incurred during 2007.

Based on our analysis, we found that expenses were paid to support two different
websites. The official website (kabf.org) maintained through CCI and other related
parties and the alternative website (kabf883.com) established by local station officials.
Based on our analysis of available information, we believe a total of $7,129 was spent
on the official website and $3,301 on the alternative website.

The ISA grant had restrictions on the use of funds. The grant was not to be spent to
reimburse KABF or its licensee for station staff or internal expenses incurred in creating
a standalone station website. KABF was required to acquire services from vendors not
related to the station’s licensee. Qualified services or service providers included:
national or regional website content providers, application service providers, website
content management or design services, and internet streaming providers. Further, the
grant was explicit regarding the time periods for spending the grant funds. A total of


                                             9
$10,000 was to be spent for the period October 1, 2004 through December 31, 2006
and the remaining $5,000 was to be spent during calendar year 2007.

Our audit of the $10,431 in ISA expenses identified $9,631 in questioned costs. We
identified $6,061 in unallowable expenses, and another $3,570 was questioned
because of the lack of documentation (i.e., vendor invoices and bank records to verify
disbursements from the local bank account).

Unallowable costs of $6,061 included $4,136 in CCI charges for general administrative
services; $1,365 for PERC email reserve account charges (monthly email, news group,
and web server fees); and $560 in AI Communications charges for telephone and
internet services. All three organizations are related parties. The grant terms precluded
using vendors related to the station. Further, all of these expenditures were internal
administrative expenses, which were also unallowable per the grant agreement, except
for web server fees, which may qualify but these costs were not separately identified
within the overall PERC charges.

Undocumented charges of $3,570 included unspecified Comcast charges of $948 for
the official website, unspecified services of $350 paid to a contractor by local station
staff for the alternative web site, and $120 paid to another vendor for unspecified
services for the official website. All of these expenses were paid by CCI and recorded
in KABF’s accounting records. Additional undocumented charges included $1,725 for a
contractor and $427 in GoDaddy credit card charges. Based on what we were told,
these costs were incurred by local KABF staff to operate the alternative web site. The
contractor payments of $1,725 were identified as being paid out of the local KABF bank
account. None of the $3,570 disbursements was supported by vendor invoices.

The $800 we accepted as allowable under the ISA grant was incurred for web
design/promotion. We were told by the complainants that this contractor was hired by
local station staff to design the alternative web site. CCI presented us with 3 of 5
invoices for these services paid through CCI and recorded in KABF’s official accounting
records. We found that the alternative website (kabf883.com) is no longer operational.
We could not determine when it ceased operations.

During our initial discussions with local KABF officials about the ISA grant, we were
referred to CCI to account for the ISA expenditures. CCI officials did not appear to be
familiar with the specific grant terms and limitations. KABF’s response to this finding
said that the Board had questioned its consultant/manager about this grant for a long
time, but how the funds were used was never made clear. They were told the KABF
web site was up and running.

      FY 2007 Restricted Funds Not Spent on National Programming

KABF did not spend most of the restricted portion of the FY 2007 CSG on the
production or acquisition of national programming, as required. KABF received $24,338




                                           10
in restricted funding and we questioned $23,298 because these funds were not spent
on national programming in accordance with CPB requirements.

CPB’s General Provisions and Eligibility Criteria for Radio CSGs, Section 3, Use of
Grant Funds – Purpose and Restrictions states that the restricted portion of the CSG
must be used for acquiring or producing programming that is to be distributed nationally
and is designed to serve the needs of a national audience. This portion of the CSG
must be used for the acquisition, production, promotion, and distribution of national
programming of high quality, diversity, creativity, excellence, and innovation with strict
adherence to objectivity and balance in all programs or series of programs of a
controversial nature. To qualify as a “national” program for funding from CSG funds, a
program must be placed in the national marketplace of public radio programming.

Review of KABF financial records and discussions with CCI officials and our audit
coordinator disclosed that KABF expended only $1,040 on national programming during
our audit period. This was for a one-year subscription to a nationally-syndicated daily
headline news program by and about working people. The other documentation
provided was for various routine in-house type expenses that did not qualify as national
programming. As a result, we questioned $23,298 in restricted funds awarded in the FY
2007 CSG.

When we inquired about spending restricted funding on national programming, we were
told by the audit coordinator “that this was all there was and that they do not do things
like this anymore.” Feedback from KABF officials acknowledged that the station had not
spent these funds on national programming. When they discovered this error, the
station purchased programming from the Workers Independent News, Women’s
International News Gathering Service and American Public Media. KABF’s Board
meeting minutes from October 27, 2009 reflect these actions. A cursory review of the
CY 2008 expense transactions did not identify any national programming expenditures
being incurred during CY 2008.

        FY 2006 Restricted Fund Expenditures

Our review of national programming documentation included a September 14, 2006
payment3 made from the KABF CPB bank account to a related party public
broadcasting radio station (KNON) in Dallas, Texas for $11,664. This documentation
stated: “. . . material services provided to your project as specified: Production and
distribution costs for Empowerment Radio as supplied to your station.” We discussed
this payment with KNON’s general manager who told us that the program was available
as a free service and anyone could listen to it by downloading it to their computer. It
was also available without charge through the Public Radio Exchange.

KNON’s general manager told us that the $11,664 payment was not solicited by the
station, and that he did not remember being informed about the transaction by CCI, its

3
  September 2006 was outside of our initial audit period; however, the audit coordinator presented us with
this documentation and given the unique nature of the transaction, we included it in our report.


                                                   11
accounting service provider. Additionally, he said that the payment was not received by
the station, because the funds transfer was processed internally by CCI, in New
Orleans. Discussion with the audit coordinator disclosed that she did not know why this
payment had been made. CCI did not provide a production agreement between KABF
and KNON to support this payment. Since the program was available for free, we
questioned the $11,664 payment.

CPB’s General Provisions and Eligibility Criteria, Section 10., B. Record Keeping and
Audit Requirements require:

      … discrete accounting and proper documentation shall be maintained to support
      all FY 2007 CSG revenues and expenditures. All CSG expenditures must meet
      the test of allowability as stated throughout this document and as provided by all
      other CSG-related documents and policies. CSG funds which cannot be
      accounted for because of recipient’s failure to comply with this requirement may
      be subject to repayment to CPB.

In this case, we found no evidence of a production agreement between KABF and
KNON, the related party station, to produce and distribute this program. While KABF
officials told us its Board had been informed by its station’s consultant/manager that
KABF was purchasing the Empowerment Radio program, they did not present any
Board minutes to support its approval of this transaction. We concluded this transaction
was initiated by CCI without the knowledge of KNON’s general manager or a signed
production agreement between the stations.

      Related Party Charges Not Adequately Documented

We found that KABF paid for administrative services provided by related parties without
adequate supporting documentation. We questioned CPB’s portion of these costs
totaling $5,364. Based on the documentation provided, we could not attest to the
specific services provided or the reasonableness of the charges. Discussions with CCI
officials indicated that these charges were allocations of related party costs spread
between its clients based on their respective budgets. The supporting documentation
provided by CCI was not adequate. Specifically, we found multiple service agreements
from different related parties providing similar services, out-dated service agreements
that did not cover our audit period and a lack of documentation of FY 2007 billing rates.

As previously referenced, CPB’s General Provisions and Eligibility Criteria, Section 10.,
B. Record Keeping and Audit Requirements require:

      … discrete accounting and proper documentation shall be maintained to support
      all FY 2007 CSG revenues and expenditures. All CSG expenditures must meet
      the test of allowability as stated throughout this document and as provided by all
      other CSG-related documents and policies. CSG funds which cannot be
      accounted for because of recipient’s failure to comply with this requirement may
      be subject to repayment to CPB.


                                           12
KABF utilized the services of a number of different related parties for a variety of
administrative services, e.g., accounting, legal, facilities, telephone, internet, human
resources, FCC assistance, etc. These services were charged monthly to KABF’s
accounts by CCI. During FY 2007, KABF paid $12,561 to related parties as shown in
the following table without adequate documentation or support.


              Related Party          10/1/06-9/30/07          Administrative Activities

         ACORN                                     $277    Campaign & program services
         AI Communications
         (ACORN Institute)                          464    Telephone, internet & website
         Network Council Fees
         (AMFM)                                    4,387   Networking services to corporation
         CCI Accounting                            5,221   Accounting services
         CCI Legal                                   985   Legal services
         CCI General                               1,227   Other administrative services
                  Total                  $12,561

We were not able to verify that these monthly assessments were reasonable based on
the documentation provided. A total of $1,691 of these costs was charged directly to
CPB’s ISA Grant, the balance of $10,870 was charged to the CSG. We questioned
$5,385 in related party costs against the FY 2007 CSG, calculated as follows:

       100 percent charged to CSG grant                                $2,172
       36.7 percent of $8,698 allocated between funders4                3,192
             Total CPB Questioned Costs                                $5,364

The documentation provided to support these charges was not adequate to attest to its
reasonableness, particularly when you consider the less than arm’s length relationships
inherent in related party transactions. KABF did not receive a monthly bill for the
services provided; CCI just recorded the charges to KABF’s accounting records. We
could not verify what services were provided, how the charges were calculated and,
whether the basis for calculating the charge was equitably distributed between the
related parties’ clients.

To illustrate, the CCI agreement provided to support these charges was dated
December 16, 2001, and covered accounting, bookkeeping, corporate, and
administrative services. The agreement did not identify legal services, but legal
services were billed to KABF during our audit period. In the agreement, KABF agreed
to pay all direct costs incurred by CCI plus a monthly fee. However, we were not
provided any documentation of the fee structure for our audit period in FY 2007. The
only documentation provided of CCI’s annual service fees was for FY 2004. Based on


4
 $10,891 - $2,193 = $8,698 portion of related party charges to be allocated between KABF funding
sources. 36.7 percent calculated based on percentage of CPB income to all income ($87,388/$237,918).


                                                 13
our work, we could not determine whether the FY 2004 fees were still in effect during
our audit period.

The AM/FM agreement was dated December 16, 1986, over 20 years ago, to provide:
bookkeeping and accounting services; advice and assistance in establishing and
maintaining management systems (including recruitment and training of qualified
management and broadcast personnel); advice and assistance regarding FCC laws,
rules, and regulations; assistance arranging loans and financing of broadcast
equipment; and advice and assistance relating to the technical operations of the station.
KABF agreed to pay all direct costs authorized by KABF plus a monthly fee. Based on
our work, we could not determine whether this agreement was still in effect during our
audit or what the fees were.

Finally, the ACORN Institute’s agreement dated March 21, 2009, subsequent to our
audit period, provided many of the same services billed under the CCI and AM/FM
agreements for such things as FCC assistance, staff training and management
assistance, Board training, legal services, and human resources management. An
agreement was not provided to identify the services provided by AM/FM during the audit
period and the related fees in effect at that time.

In discussions with KABF officials about these charges, we were referred back to CCI.
The KABF officials said the accounting was done by CCI and that the station was no
longer using their services. Based on our understanding of events, KABF officials relied
on CCI and the other related parties to provide various administrative services. KABF
had not established adequate oversight mechanisms or controls to verify the
reasonableness or necessity of the services provided and the related charges.

   Recommendations

3) We recommend that CPB management require KABF to:

   a) refund $49,957 in questioned costs;

   b) establish controls over spending to ensure radio restricted funds are spent on
      qualified national programming;

   c) demonstrate that it has spent the FY 2008-2009 restricted portion of its CSGs on
      national programming or refund the restricted portion of those grants; and

   d) ensure future CPB administrative service costs, supplied by related parties, are
      supported by current agreements that establish the methods used to determine
      the rates charged to KABF, specify the services provided, and the
      reasonableness of the costs billed (i.e., rates were consistently applied to all
      clients and can be verified to current market rates).




                                            14
   Management Response

KABF officials did not respond to recommendations 3a and 3c. Their response to
recommendation 3b indicated that expenditures from restricted and non-restricted CPB
funds will be subject to approval by station management and the Board. Their response
to recommendation 3d indicated that all administrative service expenses would be
supported by current agreements that specified the services provided and the
reasonableness of the amounts billed.

   OIG Review and Comment

Based on KABF’s response we consider recommendation 3 to be unresolved. While
KABF agreed to take corrective actions on recommendations 3b – 3d, their response
did not include any written policies and procedures implementing controls over
restricted spending or copies of any current service provider agreements for us to
evaluate. These recommendations can be resolved and closed when KABF provides
CPB officials with documentation of its planned actions and evidence that all actions
have been fully implemented.

Allowability of Amounts Claimed as NFFS

KABF claimed NFFS of $134,724 on schedule A of the FY 2007 AFR, including $54,396
in underwriting. KABF could not provide supporting documentation for $48,097 in
underwriting revenue claimed on its AFR. Thus, we could not determine the allowability
of these revenues as NFFS. As a result, CPB overpaid KABF $2,997 in its FY 2009
CSG grant based on the reported NFFS in FY 2007. For reporting purposes we have
classified the $2,997 as funds put to better use. The unsupported $48,097 represents
36 percent of the total NFFS reported for FY 2007 of $134,724. This degree of over-
statement was materially not compliant with CPB Financial Reporting Guidelines.

CPB Financial Reporting Guidelines for Preparing the AFR and FSR, Grantees’
Fiscal Year 2007 and 2008, Section 3: NFFS – Minimums for CSG Eligibility, Statutory
Definition and Reporting Criteria, states under Other Definitions:

      Contribution or exchange?

      A grantee must determine whether a transaction is a contribution or an
      exchange. . . .

      Underwriting

      The grantee must determine, based on the facts and circumstances, if a portion
      of the underwriting meets the test of an exchange transaction.

CPB Financial Reporting Guidelines for Preparing the AFR and FSR, Grantees’
Fiscal Year 2007 and 2008, Section 5.2: Completing AFR Schedule A, Direct Revenue:


                                          15
       Line 8 – Foundation and nonprofit associations

       How much of this revenue was received as underwriting? Enter on this line
       any restricted revenue received from foundation and nonprofit associations to
       pay for the cost of producing or acquiring a program for which the donor receives
       on-air or printed credit.

Our review of the 21 underwriting documents provided by KABF officials found that six
transactions did not adequately document KABF’s claim for underwriting revenue of
$48,097. To illustrate, there was no documentation provided for three transactions, two
transactions had no specific agreement terms, and one transaction was identified as a
trade agreement. We found no analysis of the trade agreement to determine whether a
portion or all of the trade was an exchange transaction and not eligible to be reported as
NFFS. Based on the documentation provided, we could not verify the business purpose
of these transactions and whether they were legitimate underwriting contributions and
did not include any exchange transactions.

Lacking adequate supporting documentation or donor agreements, we could not
determine the nature or purpose of the revenue (e.g., production underwriting,
construction or operations of the station, or if a portion of the revenue met the test of an
exchange transaction). The station must determine, based on the facts and
circumstances, if contributions received qualify to be reported as NFFS. If an exchange
transaction occurred the exchange amount cannot be reported as NFFS. The station
can only claim the difference between the value received if it exceeds the value given to
the donor for the services provided.

KABF officials stated that because of a lack of administrative direction, staff members
failed to secure contracts/agreements with some underwriters and that corrective action
has now been taken to obtain contracts/agreements for underwriting transactions as
they occur. They did not provide any further information to explain what specific
corrective actions have been implemented (e.g., written operating procedures and
control techniques to ensure documentation is obtained).

   Recommendation

4) We recommend that CPB management require KABF to:

   a) submit a revised FY 2007 AFR eliminating the unallowable underwriting
      contributions claimed as NFFS;

   b) recover $2,997 in excess FY 2009 CSG payments made to KABF based on the
      FY 2007 reported NFFS; and

   c) document corrective actions taken and controls instituted to ensure future
      compliance with CPB guidelines for documenting, recording, and reporting
      NFFS, including underwriting contributions.


                                             16
   Management Response

KABF official’s response did not address recommendation 4b. In response to
recommendation 4a KABF agreed to submit a revised FY 2007 AFR, however, they
indicated they were trying to re-construct their financial records for FY 2007 but the lack
of documentation from CCI, their prior accounting service provider, was presenting
challenges. In response to recommendation 4c, they indicated they will be instituting
controls for documenting, recording, and reporting NFFS.

   OIG Review and Comment

Based on KABF’s response we consider recommendation 4 to be unresolved. While
KABF agreed to take corrective actions on recommendations 4a and 4c, their response
did not include a revised AFR for FY 2007 or any written policies and procedures
implementing controls over NFFS reporting for us to evaluate. These recommendations
can be resolved and closed when KABF provides CPB officials with documentation of
its planned actions and evidence that all actions have been fully implemented.

Discrete Accounting Needed to Document the Use of CSG Funds

CCI’s accounting system (KABF’s accounting service provider) did not discretely
account for the receipt and expenditures of CSG grant funds in accordance with CPB
grant recordkeeping requirements. While a separate CPB bank account had been
established to initially deposit CPB funds, CPB revenues were commingled with other
revenues in either a Grants-unrestricted or a Grants-restricted income account in the
accounting system. Additionally, CPB expenses were not separately identifiable in the
accounting system’s expense accounts. The inability to match CPB revenues received
by fiscal year to corresponding expenditures prevented us from verifying that CPB CSG
funds were spent within the two year grant spending period. The lack of discrete
accounting for CPB revenues and expenditures represented a scope limitation, as
discussed further in our Scope and Methodology section.

CPB’s General Provisions and Eligibility Criteria for Radio CSGs, Section 10.B.
Record Keeping and Audit Requirements, require stations to provide discrete
accounting and proper documentation to support all CSG expenditures. It further
requires that:

    •   CSG funds which cannot be accounted for because of the recipient’s failure to
         comply with this requirement may be subject to repayment;
    •   grant recipients must maintain financial records that facilitate an effective audit;
         and
    •   records must be retained for no less than three years after the end of the
         expenditure period.

As previously mentioned, CCI maintained KABF’s financial records. These records
included two primary bank accounts, a “CPB” cash account and a KABF “Main” cash


                                              17
account While CCI had established a separate CPB bank account to deposit CPB
funds, a large amount of these funds were subsequently transferred to the KABF “Main”
account and discrete accountability over the transferred CPB revenues was lost.

During FY 2007, $55,896 of the $87,388 received from CPB was transferred to the
“Main” account. Payments of $24,257 were also made out of the “CPB” bank account
to a variety of vendors. For auditing purposes, we considered these payments to be
CPB expenditures, since there was no other record of CPB expenses maintained by
CCI.

CPB revenues were recorded in either a Grants-unrestricted or a Grants-restricted
income account in the accounting system. Both revenue accounts commingled CPB
receipts with revenues received from other sources. The commingling of multiple years
of CPB funding in either the unrestricted or restricted grant accounts did not provide an
audit trail to enable us to verify that annual CSG grant awards were spent within the two
year grant spending period authorized in the CSG agreement.

Finally, CPB expenses were not separately identifiable in the accounting system’s
expense accounts. CCI did not maintain any supplemental records to the accounting
system expense accounts to record and track CPB unrestricted and restricted
expenditures. As a result, records were not maintained to facilitate an effective audit to
account for CPB expenditures against funds received on a fiscal year basis and to
ensure that CPB grant funds were spent within the two year grant spending period.

Since total CPB expenditures were not identified by CCI, we analyzed the cash flow in
and out of the “CPB” cash account in an effort to determine whether all the FY 2007
revenues were paid out of this account during the fiscal year. We calculated an ending
cash balance of $12,357 in the “CPB” account at September 30, 2007, as follows:

                                  Analysis of Cash Balances

       Opening cash balance at October 1, 2006                        $ 5,1225
       CPB FY 2007 funds received                                      87,388
       Less: Disbursements (vendor payments & transfers)               80,153
       Ending cash balance at September 30, 2007                      $12,3576

From this analysis we were able to determine that not all of the FY 2007 CSG funds
were expended as of September 30, 2007. The available FY 2007 CSG fund balance
on this date ranged from $7,235 to $12,357 depending upon how the opening balance
was liquidated and whether this account included unused ISA funds. Since CCI didn’t

5
  We could not determine what CPB grant or multiple grants funds were included in the opening cash
balance of $5,122. At this date the ISA grant had an available cash balance of $5,574 in unused funds
and some portion of the ISA grant funds could have been included in this amount.
6
  Again, we could not determine what funds made up this cash balance. On this date the ISA grant had
an available cash balance of $2,190 and some portion of the ISA grant funds could have been included in
this amount.


                                                  18
account for CSG expenditures, we could not independently verify whether these funds
were subsequently expended in FY 2008.

We also identified an ending cash balance of $8,258 in the KABF “Main” bank account
at September 30, 2007. As previously mentioned a total of $55,896 in CPB funds had
been transferred to this account during the fiscal year. However, we could not
determine whether this balance included any unspent FY 2007 CPB funds, because we
could not match the CPB deposits to the $360,498 in disbursements and adjustments
made from this account.

Discussions with CCI officials and our audit coordinator disclosed that this was the way
CCI had performed its accounting function. They stated that having a separate CPB
bank account was adequate for their needs. KABF station officials stated that the
accounting had been performed by CCI and that they were no longer using their
services. In our judgment, KABF officials relied on CCI to perform its accounting
activities and did not ensure CCI followed CPB requirements for financial recordkeeping
and reporting.

    Recommendations

5) We recommend that CPB require KABF to:

   a) Comply with CPB’s discrete accounting requirements and maintain sufficient
      financial records to facilitate an effective audit of CPB revenues and
      expenditures. Such records should discretely account for all CPB income,
      expenditures against grants awarded on a fiscal year basis and include tracking
      expenditures over the two year grant period, and identify grant cash balances at
      the end of the grant’s fiscal year September 30th.

   b) Reconstruct its accounting records for FY 2007–2010 to track CPB expenditures
      against CPB revenues on a fiscal year authorization basis and report to CPB
      whether all the CSG funds were spent within the two year grant spending
      periods.

   c) Annually report to CPB revenues received by grant (unrestricted and restricted),
      opening cash balances, expenditures, and ending cash balances as of
      September 30th of each year.

   Management Response

KABF’s response to recommendations 5a, 5b, and 5c agreed to take corrective actions.
KABF’s new accountant will discretely account for the receipt and expenditure of all
CPB funds and maintain proper documentation to facilitate an effective audit. KABF is
currently trying to re-construct complete financial records for FY 2007-2010, but is
experiencing difficulties because of the lack of documentation from its previous
accountant, CCI. KABF agreed to annually report to CPB restricted and unrestricted


                                           19
grant revenues, opening cash balances, expenditures, and ending cash balances as of
September 30th of each year.

   OIG Review and Comment

Based on KABF’s response we consider recommendation 5 to be unresolved. While
KABF agreed to take corrective actions on recommendations 5a – 5c, their response
did not explain how they will discretely account for CPB revenues and expenditures for
us to evaluate, the re-construction of its accounting records was ongoing, and the
reporting on CPB grants will not occur until the end of the fiscal year. These
recommendations can be resolved and closed when KABF provides CPB officials with
documentation of its planned actions and evidence that all actions have been fully
implemented.

Communications Act Noncompliance

We found that KABF was not in compliance with the statutory provisions of the Act or
the CPB requirements for conducting open meetings of its Board and CAB, maintaining
an active CAB, making financial records available to the public, and establishing
operating procedures explaining how it complied with the five requirements of the Act.
Based on our audit, we found that KABF was significantly non-compliant with these
requirements.

Discussions with KABF officials and our audit coordinator indicated that they were not
fully aware of all of the requirements of the Act and believed that they were meeting the
needs of its membership and audience.

       Open Meetings

Review of available documentation and interviews of station employees disclosed that
the station did not fully comply with CPB’s open meeting requirements. Although KABF
officials held monthly meetings of its Board, they stated that they were not aware of the
specific requirements for notifying the public about the meetings and other CPB
requirements, as follows:

   •   Provide seven days advance notice of public meetings of the Board of Directors
       and the Community Advisory Board.
   •   Provide quarterly on-air announcements on at least three consecutive days of the
       station’s open meeting policy and how the public can obtain information on the
       dates, times, and location of upcoming board meetings.
   •   Provide an explanation of the reasons for closing a public meeting (e.g.,
       discussion of personnel matters, litigation, proprietary information, confidential
       advice of counsel, etc. permitted by the Act).

Section 396(k)(4) of the Act (47 U.S.C. §396(k)(4)), prohibits the distribution of federally
appropriated funds to the licensee of a public broadcasting station unless the governing


                                             20
body of the organization, any committees of such governing body, or any advisory body
of any such organization holds open meetings preceded by reasonable notice to the
public.

The minimum compliance requirements for “reasonable notice” to the public as stated in
CPB’s explanation of the Act requires stations to “Give reasonable notice to the public
of the fact, time and place of an open meeting at least one week (7 days) in advance of
the scheduled date . . . .” CPB’s explanation of the Act requires stations to provide
three types of notice.

       1. Notice is placed in the "Legal Notices" or the radio and television
          schedules section of a local newspaper in general circulation in the
          station's coverage area; or, notice is available through a recorded
          announcement that is accessible on the station's phone system; or,
          notice is available through an announcement that is accessible on
          the station's web page.

       2. Notice is communicated by letter, e-mail, fax, phone, or in person to
          any individuals who have specifically requested that they be notified.

       3. On-air announcements are made on at least three consecutive days
          once during each calendar quarter that explain the station's open
          meeting policy and provides information about how the public can
          obtain information regarding specific dates, times, and locations.

Further, CPB’s guidance on the Act requirements specifies that, if a meeting is closed in
accordance with exceptions recognized by the Act, the station must prepare a written
statement containing the reasons for closing the meeting and make it available to the
public within a reasonable time after the closed meeting. This notice should be
distributed in the same manner as announcements for open meetings. This same
guidance prohibits requiring the public to register their name or provide any other
information, except as needed to maintain public safety.

The station manager told us that the Board met on the fourth Thursday of every month.
Minutes of these meetings were maintained at the station. A schedule of Board
meetings was posted on the station’s front door during our fieldwork. The station
manager also said that they made on-air announcements about upcoming meetings;
however, these announcements were not documented in the program log for our
verification. As a result, we could not verify the station’s compliance with the
“reasonable notice” requirements to provide the public with seven days advance notice
of its upcoming board meetings.

The station’s lack of compliance with these specific requirements for providing reasonable
notice to the public of the fact, time, and place of board meetings deprived the public of the
required information envisioned by the Act.




                                            21
       Community Advisory Board

Our review of available documentation and interviews of KABF officials disclosed that
documentation was not maintained to ascertain whether KABF had a fully functioning CAB
that met at regular intervals. During our visit to the station we were told that the station did
have a CAB; however, there was no documentation to verify the frequency of its meetings or
what activities were conducted. We were not provided with a listing of the CAB members.

Documentation provided indicated that a meeting of community members was held on May
8, 2008. The documentation included a sign-in sheet which identified that over half the
attendees were either station employees or members of the Board of Directors. Minutes of
this meeting were not available to determine what business was conducted by the CAB.
Further, we could not determine whether a quorum of CAB members were in attendance at
the May 8th meeting. Other documentation available at the station showed that the station
may have used community advisory meetings to deal with local community issues that did
not involve public broadcasting.

CPB guidance requires community licensees to establish a viable CAB pursuant to the
statutory requirements of Section 396(k)(8) of the Act. This section provides that funds may
not be distributed to a community public broadcast station unless it establishes a CAB that
meets at regular intervals and Board members regularly attend the meetings. Further, CPB’s
minimum compliance requirements require the CAB to:

       •   review programming goals established by the station;
       •   review the services provided by the station;
       •   review significant policy decisions rendered by the station; and
       •   advise the governing board whether the programming and other
           policies of the station meet specialized educational and cultural
           needs of the communities served by the station . . . .

CPB guidance also requires that to qualify as a meeting, the sessions of governing
bodies, including the CAB, must include the following elements:

       •   a quorum, for the purpose of taking action, must be in attendance;
       •   deliberations must take place; and
       •   the deliberations must . . . relate to public broadcasting.

Based on the documentation provided, we could not determine whether the CAB was
fully functioning as intended by the Act. The lack of a functioning CAB denied the public
the opportunity to provide input on how well the station was accomplishing its public
broadcasting mission.

       Open Financial Records

KABF was not in compliance with the open financial records requirements of the Act
because required financial information and records were not maintained at the station


                                            22
and were not readily accessible to provide to the public upon request. The station
manager said that if a member of the public requested to see financial information they
would be directed to contact the station’s liaison at AM/FM in New Orleans and she
would provide the requested information.

Our discussions with the AM/FM liaison, our audit coordinator, determined that the
required financial documents were also not readily available from the liaison. She had
to contact CCI, KABF’s accounting service provider, and the independent public
accountant to obtain all the financial information required by the Act.

Section 396(k)(5) of the Act provides that funds may not be distributed to any public
telecommunications entity that does not maintain for public examination its Annual
Financial Report (AFR) filed with CPB, any audit reports or financial statements on the
financial condition of the station, or other information regarding finances, submitted to
CPB pursuant to subsection (l)(3)(B). CPB addresses this requirement in its minimum
compliance requirements by stating that the following documents must be made
available for public inspection:

   •   AFR filed with CPB;
   •   Audited financial statements or other financial statements filed with CPB, and
   •   Information regarding finances submitted to CPB related to any funding
       agreement with CPB that requires a financial report.

KABF’s arrangement, to have financial information provided by an off-site third party
(AM/FM) did not comply with CPB guidance which states that if the documents are kept
in a different place than the station, the documents should be maintained in a readily
accessible location. As a result, the public’s access to the station’s CPB financial
information was limited and was not readily available, as required by the CPB
guidelines.

       Documented Procedures

KABF had not developed documentation or written procedures that explain how it
complied with the open meeting, open financial records, CAB, EEO, or donor list and
political activities requirements of the Act. These procedures shall specify in detail how
the station actually goes about complying with each of the five sections of the
certifications made by grant recipients. These procedures are necessary to provide the
public with information they can use to understand how the station complies with these
responsibilities.

CPB provides the following guidance in its certification requirements for developing
implementing instructions for the Act’s requirements.

        Each recipient of a CPB station grant . . . shall develop
        documentation . . . that will indicate, for example, the recognition of
        the provision by the relevant boards and committees, the procedure


                                            23
        for open meetings, the method used to give reasonable notice to
        the public, examples of notices of open meetings . . . and other
        information indicating community response, if any, to open
        meetings.

        Each station . . . will indicate, for example, the type of [financial
        reports and other financial] records made available for public
        inspection (by specific description), the mechanism by which the
        records are made available . . . the location of these records . . .
        and any limitations placed on access to the file. . . .

        Each licensee . . . is to develop documentation that may be used to
        verify the statistical employment information reported to CPB . . . .
        This documentation shall contain . . . the type of records made
        available . . . the location of these records, the arrangements made
        for reproduction . . . , and any limitations placed on access.

        Each recipient of a CPB station grant, after reviewing the above
        information requirements, shall develop documentation indicating
        the manner of compliance with these requirements. The
        documentation shall be kept at a reasonable location by each
        station and be made available to CPB, upon request, to determine
        the fact and extent of compliance.

These policies and procedures are essential to ensure compliance with the Act and to
provide the public with information about how the station operates. It also provides the
transparency envisioned by CPB’s guidelines.

KABF officials annually certified the station’s compliance with these requirements when
applying for its CSG. Future entitlements may be jeopardized by continuing
noncompliance with these requirements.

In response to these findings, KABF officials stated that:

   •   Open Public Meetings: The station has corrected this situation by including the
       Board open public meeting announcement on the log instead of just letting the
       programmers mention the meeting because it was on the bulletin board.
   •   Community Advisory Board: The station plans to revise its CAB plan and hold
       regular stand-alone meetings.
   •   Open Financial Records: The station acknowledged a lack of administrative
       direction to staff members to maintain and make available all required public
       information. This condition has been corrected by maintaining all records in its
       office.
   •   Documented Procedures: The station is currently developing procedural
       documentation that explains how the station complies with the Open Meeting,




                                             24
      Open Financial Records, CAB, EEO, and Donor List and Political Activities
      requirements of the Act.

   Recommendations

6) We recommend that CPB require KABF management to fully comply with all
   requirements of the Act and provide CPB with documentation of its compliance with
   the following requirements over the next fiscal year.

   a) Improve recordkeeping of advance public meeting announcements for Board,
      CAB, and other committees established by the Board, placed on its web site, or
      by other notice, so that announcement dates can be verified.

   b) Make on-air announcements for at least three consecutive days once each
      calendar quarter that explain the station’s open meeting policy and provide
      information on how the public can obtain information regarding specific dates,
      times, and locations of public meetings. Maintain documentation of station on-air
      announcements, including the date and time of each announcement.

   c) Maintain accurate and complete records of all public meetings, including minutes
      and agendas of the Board and CAB, as well as, reports the CAB provided to the
      Board.

   d) Ensure an independent CAB has been established, meets regularly, and carries
      out its responsibilities to:

      i) review program goals;
      ii) review significant station policy decisions; and
      iii) advise the Board whether programming and other policies meet the
           specialized educational and cultural needs of the community.

   e) Ensure required financial information is available at the station location for public
      inspection, as required by the Act and CPB guidelines.

   f) Establish written implementing policies on the station’s practices for all of the
      Act’s requirements, including open meetings, maintaining a functioning CAB,
      maintaining open financial records, reporting EEO information, and maintaining
      donor lists.

7) We recommend that CPB consider establishing a policy to:

   a) reduce CSG funding from stations who violate provisions of the Act until
      compliance is fully achieved; and

   b) suspend stations from the CSG program for repeat violations of Act
      requirements.


                                            25
   Management Response

In response to recommendations 6a – 6f, KABF officials agreed to take corrective
actions. All of their actions are prospective to be implemented in the future. KABF
officials did not respond to recommendation 7, this recommendation was directed
towards CPB management and not KABF.

   OIG Review and Comment

Based on KABF’s response, recommendations 6 and 7 remain unresolved. While
KABF agreed to take corrective actions on recommendations 6a – 6f, their response did
not include written policies and procedures addressing compliance with the
Communications Act requirements for us to evaluate. These recommendations can be
resolved and closed when KABF provides CPB officials with documentation of its
planned actions and evidence that all actions have been fully implemented.
Recommendation 7 was directed towards CPB management and remains unresolved
until CPB makes a management decision.




                                           26
                                                                         Exhibit A


                Schedule of CPB Payments to KABF-FM
                               for CPB Grants Examined



Payment Date     Grant Type          Unrestricted        Restricted      Total

               Internet Service
   3/7/05      Acquisition Grant                    $0         $10,000      $10,000

                  ISA Total                                    $10,000      $10,000

  10/1/06       FY 2007 CSG                 $31,525            $12,169      $43,694
   8/8/07       FY 2007 CSG                  31,525             12,169       43,694

                FY 2007 Total               $63,050            $24,338      $87,388

                Total Grants                $63,050            $34,338      $97,388




                                          27
                                                                       Exhibit B


        KABF-FM Annual Financial Report
          January 1, 2007 – December 31, 2007


Line                       Description                    2007


        Schedule A, Source of Income:
1.      Amounts provided directly by federal government   $        0
2.A.    CPB-CSG                                               59,950
2.C.    CPB-Restricted CSG                                    23,141
4.      State boards and departments of education             43,624
5.      State colleges and universities                       37,450
8.      Foundation and nonprofit associations                  1,261
9.      Business and Industry                                 54,396
10.     Memberships and subscriptions                         16,746
14.A.   Gross special fundraising revenues                     1,350
21.     Total Revenue                                     $237,918
         Adjustments to Revenue
22.     Federal revenue                                        $   0
23.     Public broadcasting revenue                           83,091
25.     Other revenue on line 21                              18,753
26.B    Special fundraising event expenses                     1,350
27.     Total Direct Nonfederal Financial Support         $134,724


        Schedule E, Expenses:
         Program Services
1       Programming and production                        $167,252
2       Broadcasting and engineering                          47,889
3       Program information and promotion                      8,390
         Support Services
4       Management and general                                30,608
5       Fund raising and membership development               10,748
6       Underwriting and grant solicitation                    3,230
7       Depreciation and amortization                              0
        Total Expenses                                    $268,117




                                    28
                                                                       Exhibit C


 KABF-FM Summary of Non-Federal Financial Support 2007
Certification by Head of Grantee and Independent Accountant’s Report
                  January 1, 2007 – December 31, 2007


         Line                      Description              2007


                Summary of Non-Federal Financial Support:
         1      Direct Revenue (Schedule A)                 $134,724
         2      Indirect Administrative (Schedule B)               0
         3      In-Kind Contributions (Schedule C)
         3a      Services and Other Assets (Schedule C)            0
         3b      Property and Equipment (Schedule D)               0
         4      Total Non-Federal Financial Support         $134,724




                                            29
                                                                            Exhibit D


                         Analysis of Questioned Costs
                    Period October 1, 2004 – September 30, 2007


                                      CPB GRANT PERIODS
      CPB Grant Type           10/04-12/07    10/05-9/06   10/06-9/07   Total

Internet Service Acquisition
  Unallowable                      $6,061                                 $6,061
  Lack of Documentation            $3,570                                 $3,570

CSG - Restricted
 Unallowable                                                 $23,298     $23,298
 Lack of Documentation                          $11,664                  $11,664

CSG - Unrestricted
 Lack of Documentation                                        $5,364      $5,364

            Total                  $9,631       $11,664      $28,662     $49,957




                                         30
                                                                             Exhibit E


                            Scope and Methodology

We performed the examination to determine KABF’s adherence to the requirements of
the CPB Financial Reporting Guidelines, Generally Accepted Accounting Principles,
provisions of the Act, and CPB grant provisions and certification requirements. The
scope of the examination included reviews and tests of the data reported by the station
on the 2007 AFR and audited financial statement. We examined KABF’s compliance
with the Act and Certification Requirements for CPB station grant recipients. We
examined expenses for the Community Service Grant and Internet Service Grant to
determine if expenses incurred were allowable in accordance with the terms and
conditions of the grants. Our examination of expenditures was limited by the lack of
discrete accounting for CPB revenues and expenditures by grant. This limited our
ability to verify that CSG funds were fully spent within the two year grant period.

We conducted a risk assessment using the information presented on KABF’s 2007 AFR
and audited financial statements. As part of our risk assessment, we gained an
understanding of internal controls established by KABF for preparation of the AFR,
recording revenue, and approving expenditures. We met with KABF’s independent
public accountant (IPA) and reviewed copies of the IPA’s working trial balance and
certain supporting schedules retained at the IPA’s office that were used to prepare the
audited financial statements. The risk assessment was used to plan our audit work and
to select those areas that presented the greatest risk to KABF and CPB.

Specifically, we tested the accuracy of the AFRs primarily by performing financial
reconciliations and comparisons to KABF’s underlying accounting records and audited
financial statements. We evaluated compliance with CPB’s Financial Reporting
Guidelines, in part, by reviewing KABF’s determination of revenue when computing its
NFFS. We reviewed documentation supporting revenue reported on the 2007 AFR.
Without discrete accounting for CPB CSG expenditures we had to sample from all
KABF expenses transactions to verify they were used for public broadcasting purposes.
We selected a judgmental sample of these expenses and reviewed the supporting
documentation to determine whether the expenses were appropriate and allowable.
CCI presented us with a schedule of the Internet Service Acquisition grant expenditures.
The $10,000 that KABF received was to be spent during the period October 1, 2004
through December 31, 2006. We also reviewed the trial balances and supporting
detailed transactions submitted to us by CCI.

Our examination was performed in accordance with Government Auditing Standards,
for Attestation engagements. We conducted our examination fieldwork during April
2009 and obtained additional information, as needed, through January 2010 to prepare
our report.



                                           31
